                                                                 NATIONAL RAILROAD PASSENGER CORPORATION
                                                                                    10 G Street, NE (3W-300)
                                                                                      Washington, DC 20002
                                                                                              (202) 906-4863




    Date    November 2, 2010                           From    Ted Alves

     To     Users of Amtrak Office of             Department   Office of Inspector General
            Inspector General Audit
            Reports
                                                     Subject   Amtrak Inspector General Report
                                                                No. 205-2009, Attleboro Pawtucket
                                                               Agreement Review, September 30,
                                                               2009

We are withdrawing the subject report. Shortly after publishing the report on September 30, 2009, we
became aware of questions about the accuracy of some material in the report. As a result of these
questions, we conducted an independent internal review of the report and its supporting
documentation.

Our internal review concluded that the report did not meet accepted quality standards for an Inspector
General work product. The review found the methodology used to determine whether (1) Amtrak
improperly subsidized the MBTA for the maintenance and operation of the Attleboro Line Commuter
Operations and (2) Amtrak failed to bill MBTA for increased maintenance costs associated with an
increase in service frequency did not adequately consider all factors that may have impacted
maintenance and operations costs. For example, the methodology used to determine the amount
Amtrak should have billed MBTA for costs associated with the increase in service frequency did not
adequately consider the impact of wage increases or Amtrak-directed maintenance projects on the
overall maintenance and operational costs. As a result, the findings in the report can not be relied
upon.

We have determined that additional work will not be undertaken to reissue the report because staff is
not readily available due to other priority audits. Further, the key staff who worked on the report have
left the Amtrak Office of Inspector General.

We are notifying you of the withdrawal of this report so that you do not continue to rely on its
conclusions and recommendations. The report has been removed from our website. If you have any
questions, please contact David R. Warren, Assistant Inspector General, Audit at 202-906-4742 or
Michael Kennedy, Senior Director, Audit at 202-906-4398.
Audit Engagement Memo
 Law Claims Collections
            Page 2 of 2
